<html>
<title> - SRI LANKA'S DEMOCRATIC TRANSITION: A NEW ERA FOR THE U.S.- SRI LANKA RELATIONSHIP</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  SRI LANKA'S DEMOCRATIC TRANSITION: A NEW ERA FOR THE U.S.-SRI LANKA 
                              RELATIONSHIP

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2016

                               __________

                           Serial No. 114-215

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________
                                 
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-381PDF                    WASHINGTON : 2016                      
                                 
________________________________________________________________________________________                                
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>  





                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                             --------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lisa Curtis, senior research fellow, Asian Studies Center, 
  The Davis Institute for National Security and Foreign Policy, 
  The Heritage Foundation........................................     6
Ms. Kara L. Bue, founding partner, Armitage International........    16
Nimmi Gowrinathan, Ph.D., visiting professor, Colin Powell Center 
  for Civic and Global Leadership, City College of New York, City 
  University of New York.........................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Lisa Curtis: Prepared statement..............................     8
Ms. Kara L. Bue: Prepared statement..............................    19
Nimmi Gowrinathan, Ph.D.: Prepared statement.....................    28

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39

 
                   SRI LANKA'S DEMOCRATIC TRANSITION:
                    A NEW ERA FOR THE U.S.- SRI LANKA
                              RELATIONSHIP

                              ----------                              


                         THURSDAY, JUNE 9, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. Subcommittee will come to order.
    Members will be permitted to submit written statements to 
be included in the official hearing record. Without objection, 
the hearing record will remain open for 5 calendar days to 
allow statements, questions and extraneous materials for the 
record, subject to the length limitation in rules.
    I would like to begin my remarks by offering my sincere 
condolences to those who recently lost loved ones and sustained 
property damage in Sri Lanka and across South Asia due to 
Cyclone Roanu.
    I wish for a speedy recovery for the Sri Lankan people and 
hope our newly invigorated development relationship that we're 
going to discuss today can help meet some of the challenges 
left in the wake of the storm.
    Sri Lanka's lengthy and tortuous civil war between the 
majority Sinhalese and the minority Tamils of the north and 
east ended in 2009 but the country remains challenged by deep 
divisions.
    Sri Lanka's prior leader, President Rajapaksa, steered the 
country in an authoritarian direction which included 
allegations of pervasive human rights abuses, rampant 
corruption and the failure to follow the rule of law.
    In 2015, the Sri Lankan people chose a new path with the 
election of President Sirisena and Prime Minister 
Wickremesinghe. There's an opportunity for a new era of 
democratic reforms and enhanced U.S.-Sri Lankan relations.
    Relations between the U.S. and Sri Lanka under the 
Rajapaksa government were often strained due in part to human 
rights concerns and the treatment of the minority Tamil 
population.
    We are optimistic that the Sirisena-led government is 
committed to change and have already begun implementing 
important reforms. In 2015, the Sri Lankan Parliament passed 
its nineteenth constitutional amendment to strengthen 
democratic governance and the government co-sponsored a U.N. 
Civil Rights Council resolution addressing atrocities committed 
during the civil war.
    However, the Sirisena government now appears reluctant to 
allow foreign judges and prosecutors to participate in war 
crimes investigations as called for in the U.N. resolution.
    President Sirisena has the difficult task of maintaining 
the government unity that is needed to pass constitutional 
reforms.
    He has found himself between a rock and a hard place and 
any moves favored by one element of Sri Lanka's political 
puzzle could alienate another, potentially undermining his 
political support and breaking the fragile consensus that makes 
reform even possible.
    In light of this challenge late last year, Secretary Kerry 
announced a U.S. assistance commitment of $40 million to 
support comprehensive reforms in Sri Lanka, which the 
administration hopes will have a significant effect on the 
trajectory of Sri Lanka's democratic reform and reconciliation 
process.
    Closer U.S.-Sri Lankan ties founded in democratic values 
will facilitate a stronger foundation that will serve as a 
solid basis for broader cooperation in the Indian Ocean region 
as well.
    Under the Rajapaksa--I apologize, I should have a better 
handle on that name--leadership human rights became a wedge 
issue for the United States and Sri Lanka, weakening the 
relationship, and in response Sri Lanka turned to China for 
support.
    China considers to assert considerable influence, funding 
development projects in Sri Lanka including the Colombo Port 
City Project, a $1.4 billion infrastructure project almost 
entirely funded by Chinese foreign direct investment.
    The port is strategically located along the busiest 
commercial sea lane in the world and will be a key part of 
China's One Belt, One Road Maritime Silk Road vision to expand 
its influence by investing in infrastructure along the trade 
and energy routes that transit the Indian Ocean.
    China's regional investments are difficult for small 
nations like Sri Lanka to pass up. These offers are easy to 
accept as they do not come with commitments to reform in any 
way.
    Through our increased development commitment and diplomatic 
ties, the United States is recognizing Sri Lanka's geopolitical 
significance to the region and I do support this elevated 
cooperation.
    President Sirisena has shown a willingness to work more 
closely with the United States and in February of this year our 
nations began the annual U.S.-Sri Lanka partner dialogue, 
bringing new opportunities for the bilateral relationship.
    And I look forward to our panel of experts suggesting ways 
in which we might enhance the U.S.-Sri-Lankan relationship to 
our mutual benefit.
    I also hope they will share insights on Sri Lanka's 
delicate politics and make recommendations for the future of 
the U.S.-Sri Lankan relations.
    This is a heightened--there is a heightened sense of 
optimism surrounding Sri Lanka's recent changes and I look 
forward to today's hearing to discuss ways we can prioritize 
those efforts.
    And I'd like to turn now to Mr. Sherman for any statements 
he might have.
    Mr. Sherman. Mr. Chairman, thank you for holding this 
hearing and I join with you in concern about China's expansion 
into the Indian Ocean and especially in Pakistani and Sri 
Lankan ports.
    First, I want to express my sympathy and condolences for 
all those in Sri Lanka impacted by the flooding associated by 
Cyclone Roanu. I hope that the hundreds of thousands of people 
who were displaced can return to their homes and rebuild soon. 
I'm looking forward to those whose loved ones are missing 
hopefully being reunited with them.
    Last year, Sri Lanka saw some positive developments. I 
expect there's near universal approval among the subcommittee 
members for the election of Sri Lankan President Sirisena and 
the reaffirmation of the decision in the parliamentary 
elections later in the year.
    The elections brought to an end the previous government, 
which had become increasingly intolerant. These elections 
represented a true success for the democratic spirit. The new 
President deserves recognition for reducing the power of the 
presidency.
    I look forward to one day complimenting an American 
President for scaling back the expansion of the imperial 
presidency here in the United States.
    But returning to Sri Lanka, the new President there has 
scaled back the powers of the presidency, creating more space 
for dissent and free expression and opening the country to 
greater scrutiny by international human rights organizations.
    These are notable steps. It's never easy to heal a civil 
war. The current government came in with a set of promises and 
impressed the world. Sri Lanka's co-sponsorship in October 2015 
of the U.N. Human Rights Council resolution recommending 
concrete steps toward true political reconciliation was truly 
and widely acclaimed.
    There were promises of the return of land seized during the 
conflict of accountability with international oversight for 
those who committed crimes, of constitutional reforms to move 
power to regions and of changes in the security sector that 
would end a culture that promoted abuse with impunity.
    Last month, I met with the Sri Lankan Ambassador and 
encouraged Sri Lanka to move forward with plans to continue 
political reconciliation. The Ambassador described a decline in 
the military's role and in its presence in the north and east 
of the country, and the constitutional council's work toward 
giving more power to local officials.
    What I've heard from others, particularly from Tamil 
groups, is that the political process of reconciliation and 
security sector reform are not moving forward nearly as quickly 
as they should.
    It is encouraging that the government has established an 
office of missing persons but we have yet to see how it can 
operate independently from the government, how it will be 
resourced and how effective it will be.
    The government has promised to reduce the role of the 
military but the defense budget has actually grown from $1.2 
billion in 2009, which is when the conflict ended, to a new 
higher level of $2.13 billion in 2016.
    The government has declared that it will resettle all those 
displaced in the war by the end of this year. Yet, it has not 
returned the vast majority of land seized during the conflict.
    It is deeply disturbing to learn that both the President 
and Prime Minister of Sri Lanka have declared their intention 
to pursue a truth and reconciliation mechanism devoid of 
international judges. The Tamil population is unlikely to 
accept this as impartial justice.
    Most critical is the issue of the return of government-
seized land. The slow progress on this front represents not 
only a burden on tens of thousands of those who have been 
displaced, many of whom remain homeless but also a major 
barrier to building trust between the peoples of north and east 
Sri Lanka with the central government.
    This is a tenuous moment. There is still a sense of 
optimism, but the government can no longer just rest on this 
sense of optimism that came with its election.
    I look forward to the witnesses' assessment of these 
processes and especially for direction on what the United 
States can do to advance full reconciliation between the 
Sinhalese and the Tamils with due respect for human rights and 
accountability. Sri Lanka has traditionally been one of the 
most advanced and prosperous nations in South Asia and I look 
forward to it also being a beacon of human rights as well, and 
I yield back.
    Mr. Salmon. Thank you.
    Just want to advise the committee members and the panelists 
there's a good likelihood that we're going to be called for 
floor votes anytime in the next few minutes. So there are other 
members that would like to make opening statements.
    So there's a real good possibility we may end up having to 
do that and then come back. So I will apologize to the 
witnesses ahead of time.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing and thank the 
witnesses for being here. As a former chair of this committee, 
I have taken a particular interest in Sri Lanka and I visited 
there and been in the northeast and saw the burned-out 
buildings and a lot of the damage and things which had been 
caused by a lot of years of war and a lot of lives destroyed.
    And just yesterday Sri Lanka acknowledged approximately 
65,000 people missing during the 26 years of the off and on 
civil war. But now 6 years after the official end of the civil 
war there may be real opportunity to reconcile the people of 
Sri Lanka and rebuilt this really beautiful country. So I hope 
that they are successful.
    However, I do remain somewhat weary. Although Sri Lanka is 
in the midst of early signs of actually attaining a sustaining 
peace and democracy, the scars of the civil war still remain 
and recently it was somewhat alarming when President Sirisena 
vowed to eradicate the LTTE ideologies both locally and 
internationally and I think this kind of rhetoric can be 
counterproductive but also damaging for the long-term prospects 
for national reconciliation, which is absolutely critical.
    So I know these are exceptionally complex issues. I thank 
you and commend you for holding the hearing and yield back.
    Mr. Salmon. Thank you.
    Ms. Meng.
    Ms. Meng. Thank you, Chairman Salmon and Ranking Member 
Sherman, as well as all of our distinguished guests for coming 
to testify here today.
    I especially love to see a professor from City University 
of New York on our panel. We continue to express our 
condolences to so many people and their families who have been 
affected by the landslides and our thoughts and prayers 
continued to be with them.
    The election of President Sirisena in January 2015 brought 
the promise of a wide variety of reforms and a more inclusive 
government that would protect the interests of all Sri Lankans 
regardless of ethnic and religious affiliations.
    The United States has a strong interest in ensuring that 
Sri Lanka remains committed to these reforms and we have 
certainly deepened our engagement with Sri Lanka in 
anticipation that a Sirisena government will follow through 
with these promises.
    Sri Lanka has certainly taken some steps to implement a few 
reforms. But many people, particularly in the minority 
populations, experience ongoing violence and have been 
frustrated with the slow reform process that remains extremely 
vulnerable to political divisions.
    I look forward to hearing your assessment on the current 
reform process and challenges. Thank you, and I yield back.
    Mr. Salmon. Thank you.
    Mr. Donovan.
    Mr. Donovan. Thank you, Chairman. I would like to thank 
Subcommittee Chairman Matt Salmon and Ranking Member Brad 
Sherman along with their staffs for holding this hearing.
    Although I am not a member of this committee, I am grateful 
for the opportunity to speak here today. The relationship 
between the United States and Sri Lanka is important to my 
district of Staten Island and western Brooklyn because I 
represent the largest population of Sri Lankans in the United 
States. And welcome, Professor. It is great to have another New 
Yorker in the room.
    Many of my constituents are ethnic Tamils and left Sri 
Lanka during the civil war that lasted 26 years. They could not 
have been more relieved when it ended in 2009 and elections 
were conducted in 2015.
    These elections in Sri Lanka have provided an opening for 
change and reforms that have been taken place. However, I am 
not sure if the reforms have gone far enough. So U.S. attention 
and encouragement remains vital.
    In particular, the reforms needed for reconciliation 
between Sinhalese and Tamils, Hindus, Christians, Muslims and 
Buddhists after a long war have not yet been accomplished.
    We need security sector reform to reorient the military for 
peace time, political reform to provide greater autonomy for 
regional governments, and legal reform for neutrality of the 
judiciary and criminalization.
    Criminalizing terrible abuses such as enforced 
disappearances, war crimes and crimes against humanity remain 
as important tasks for the future.
    Sri Lanka has made important commitments in the area of 
accountability and transactional justice and needs to be held 
to those commitments in the areas of truth telling, justice, 
reparations and institutional reforms so that reconciliation 
can take place.
    I look forward to hearing from the witnesses and reporting 
back to my constituents, and I yield back the remainder of my 
time, Mr. Chairman.
    Mr. Salmon. Thank you. We are proud to be joined today by 
an esteemed group of panelists--first, Ms. Lisa Curtis, senior 
research fellow at the Heritage Foundation, welcome; Ms. Kara 
Bue, partner at Armitage International; and Dr. Nimmi 
Gowrinathan.
    Did I say that right? Close enough, for government work 
anyway? A visiting professor from the city of New York.
    And we are really thrilled to have you each here today and 
we will start with Ms. Curtis.

  STATEMENT OF MS. LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
 STUDIES CENTER, THE DAVIS INSTITUTE FOR NATIONAL SECURITY AND 
            FOREIGN POLICY, THE HERITAGE FOUNDATION

    Ms. Curtis. Thank you, Chairman and----
    Mr. Salmon. Oh, thank you.
    Ms. Curtis. Thank you, Chairman Salmon, Ranking Member 
Sherman, the rest of the distinguished members of the 
subcommittee, for inviting me here today to talk about U.S.-Sri 
Lankan relations.
    I will summarize my written testimony and ask that my full 
written testimony is submitted for the congressional record.
    Let me join the voices of the members of the panel to 
express my sympathy for the victims of the severe flooding and 
landslides that struck Sri Lanka last month. My thoughts and 
prayers go out to the families of those who lost their lives as 
well as those who lost homes and other property.
    There has been a rapid turnaround in U.S.-Sri Lankan 
relations in the past 18 months since President Maithripala 
Sirisena took power. The passage of the nineteenth amendment 
that curbed the powers of the presidency just a little over a 
year ago was a milestone on the path back to democracy.
    Indeed, the democratic reform process is enabling our 
countries to improve relations and Sri Lanka continues to be 
important for its geographic position at the maritime 
crossroads of Asia and the Middle East.
    The results of the parliamentary elections that were held 
in August 2015 further raised hopes that the country would 
continue down a path of reform and reconciliation.
    Sirisena cooperated with the United National Party in 
elections that brought Ranil Wickremesinghe to power as the new 
Prime Minister and the two sides formed a unity government.
    In a major departure from the former Rajapaksa government's 
triumphalist attitude toward the 2009 defeat of the LTTE, the 
Unity Government in September 2015 co-sponsored a U.N. Human 
Rights Council resolution acknowledging that war crimes were 
committed by both the government and LTTE insurgents during the 
civil war.
    In addition to lifting curbs on the media, opening travel 
to the northern parts of the country, this Sri Lankan 
Government has also welcomed international human rights 
organizations to the country, a practice that the previous 
government shunned.
    The cabinet also recently approved the establishment of an 
Office of Missing Persons, although some members of the Sri 
Lankan society have complained that they were not consulted 
about the move.
    The government has vowed to adopt a new constitution that 
abolishes the executive presidency, adopts electoral reform and 
strengthens provincial devolution.
    Despite all of these positive steps, there remains concerns 
within the Tamil activist community that the human rights 
reform process is beginning to stall. One contentious issue is 
whether there will be foreign judges on the panel to 
investigate human rights abuses.
    There is tremendous resistance from the majority Sinhalese 
nationalists, who still hold a large chunk of parliamentary 
seats, to the idea of international judges determining the fate 
of Sri Lankan military officials.
    Tamil human rights activists question whether the U.S. is 
over estimating the level of change at the grass roots level or 
giving too much credit to the government when there are still 
major human rights concerns among the Tamil people.
    Let me say a few brief words about China and India, and Sri 
Lanka's relationship with these two key countries. There has 
been criticism of the Rajapaksa government's cozying up to 
China and questions surrounding large-scale infrastructure 
projects that were pursued during his tenure.
    Sri Lanka's willingness under the Rajapaksa regime to allow 
Chinese submarines to dock at Colombo's ports twice in late 
2014 alarmed Indian officials, who are wary of China's 
increasing influence in its back yard.
    Sri Lanka has since toned down its relationship with China. 
However, China will continue to factor largely in Sri Lanka's 
economic future as Prime Minister Wickremesinghe's recent visit 
to Beijing demonstrated.
    Sri Lanka needs Chinese infrastructure investment and now 
that the country is facing a financial crunch it cannot afford 
to alienate China to which it owes $8 billion in debt.
    So moving forward, the U.S. should encourage the democratic 
reform process that is underway, encourage more speedy movement 
toward reconciliation and transitional justice.
    It should build broader economic and investment ties with 
Sri Lanka and assist with the revitalization--the economic 
revitalization of the war-torn areas of the north and east.
    Without economic and job opportunities, it will be 
difficult to sustain support for peace and reconciliation.
    Lastly, the U.S. should focus on enhancing maritime 
cooperation with Sri Lanka, recognizing the pivotal position 
that Colombo occupies in the Indian Ocean region.
    So in conclusion, there is a unique opportunity to move 
forward with ethnic reconciliation and to unify the country 
following nearly three decades of civil war, and I think the 
unity government deserves credit for its implementation of 
democratic reforms.
    But there is still a great deal of work to be done in 
promoting ethnic reconciliation and a durable peace.
    Thank you.
    [The prepared statement of Ms. Curtis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Salmon. Thank you.
    Ms. Bue.

   STATEMENT OF MS. KARA L. BUE, FOUNDING PARTNER, ARMITAGE 
                         INTERNATIONAL

    Ms. Bue. Thank you, Mr. Chairman and Ranking Member Sherman 
and the other esteemed members of this committee.
    I would like to express my appreciation for your 
willingness to have me appear here to talk about the future of 
Sri Lanka. I followed it for some time and I am very grateful 
for the attention it is getting now.
    I too would like to express my condolences to the Sri 
Lankan people during the cyclone that hit several months ago. I 
was there at the time and it was devastating to see the harm 
that was done to the people and their property, but I was very 
proud too that the United States came forward with additional 
aid that could help the people who suffered from those storms. 
So I was very happy to see that happen.
    I had been asked to talk about U.S.-Sri Lanka relations. 
Over the last 15 years there has been an ebb and flow in terms 
of our engagement there.
    With the election of President Sirisena and Prime Minister 
Wickremesinghe, there really is a new opportunity for 
engagement. They came into power with a platform of good 
governance and reconciliation, and together with that they came 
in with the desire to rebalance Sri Lanka's foreign policy.
    What that did was open the door for the United States to 
engage in a wide range of opportunities for support in Sri 
Lanka's efforts to finally set the stage for lasting peace and 
it also allowed us to regain our partnership with Sri Lanka on 
key issues.
    For its part, the Government of Sri Lanka has put forth 
what anyone would consider a very ambitious agenda. I look at 
it in terms of five pillars--their ideas about constitutional 
reform, economic stabilization, addressing the painful war 
legacy, rebuilding democratic institutions and reestablishing 
rule of law.
    In many ways they have made great progress in the 15, 16 
months since they've been in power. Importantly, they have 
undertaken two ambitious efforts.
    One is constitutional reform where they're looking to 
redraft the constitution, have that presented to the Parliament 
at the end of the year and then thereafter follow it with a 
referendum.
    The other and perhaps more important was Sri Lanka's 
agreement at the U.N. Human Rights Council meeting to agree to 
the resolution on reconciliation and transitional justice. 
That, I believe, is a historic event, particularly given the 
history of the Rajapaksa regime.
    The other thing I would like to note on the Government of 
Sri Lanka's part is the tone it has taken with regard to ethnic 
issues and how different that is from the Rajapaksa regime.
    I know some of what they are doing is very symbolic but it 
has been meaningful to people in Sri Lanka. The national 
anthem, for example, on Independence Day being sung in Tamil 
was a very big deal to many Tamils.
    I met with Chief Justice Wickremesinghe and he was very 
moved by that fact. On Remembrance Day, which used to be called 
Victory Day, they held no parades and that, I think, was a 
testament to the Sri Lankan Government's intentions with regard 
to reconciliation.
    In turn, for all of this the United States has stepped up 
its engagement as well. Soon after the elections, they had a 
number of high-level visits. They developed the idea of a new 
U.S.-Sri Lankan partnership dialogue. The U.S. was very 
instrumental at the Human Rights Council meeting.
    In terms of the resolution we have increased assistance. 
Forty million dollars, I believe, is what Secretary Kerry 
offered during his visit in May 2015 and we engaged a bit on 
military to military engagement and, of course, are looking at 
economic opportunities.
    Having traveled to Sri Lanka several--at least four times 
in the last 9 months, I did want to offer some caution in the 
sense that while we are very excited about how U.S.-Sri Lanka 
relations are going and the direction they are taking, there 
are clouds in terms of how the Sri Lankan Government can move 
forward.
    They face a lot of challenges in trying to implement their 
wide ambitious agenda. The first is that it is very big and it 
has a lot of moving parts.
    For Sri Lanka to do everything it wants to do, it is going 
to take a long and very complicated process to get things done 
and I think that is something that everyone needs to realize.
    They also lack resources and institutional capacity, both 
in terms of people and in infrastructure. There are people 
within the military, within the bureaucracy and within 
political parties that aren't really on board in terms of what 
this ambitious agenda is about to do.
    So they do face a lot of controversy there and on top of 
it, the new government is part of a very diverse and unique 
coalition within the Sri Lankan political party.
    So there is a lot left to be done and not everyone has 
gotten down to work and is attempting to address its agenda. 
Having talked to people in the north and east, they are not yet 
feeling the peace dividend.
    What I have heard is a statement that is commonly used, 
which is that everything has changed and yet nothing has 
changed. And so the government has a lot left to do to respond 
to the needs of the people in the war-affected areas and that 
too is a very large challenge and something that we should try 
to help them with.
    In all of this, I think the areas that deserve the most 
attention are leadership and confidence-building measures. The 
Sri Lankan Government has a short time frame in which to get a 
lot done and people in the war-affected areas in particular 
aren't going to give it that much time before their positions 
start to harden and, frankly, I think they're already starting 
to harden.
    And so in terms of leadership and confidence building, 
leadership is the idea of greater communication on the part of 
the Sri Lankan Government.
    In terms of their agenda, I don't think they have done well 
enough in educating and bringing along all people of Sri 
Lanka--the people in the south as well as the north and east--
in terms of what they are trying to do to respond to 
everybody's needs. Communication is a big factor.
    In terms of confidence-building measures, the idea would 
try to change the mantra in the north and east about how 
everything has changed and nothing has changed. Start making 
things change a little bit for the better in terms of focusing 
on more land release, for example.
    Lastly, an area that I think the U.S. should look at in 
greater detail is the idea of a donor conference for 
development in the north and east.
    In 2003, after the cease fire had taken place, the United 
States was instrumental in bringing together an international 
coalition in a donor conference in Tokyo where they raised $4.5 
billion for a period of 3 years.
    And that gave people a lot of hope. Now, the rancorous 
politics in Sri Lanka dashed those hopes and war returned. But 
in this instance where we feel there is a little more hope and 
a little more opportunity for lasting peace, I do think it 
would be wise to consider another type of effort where we could 
be instrumental making tangible change happen in the war-
affected areas.
    And with that, I would like to thank you for your time and 
consideration.
    [The prepared statement of Ms. Bue follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you very much.
    Dr. Gowrinathan.

  STATEMENT OF NIMMI GOWRINATHAN, PH.D., VISITING PROFESSOR, 
   COLIN POWELL CENTER FOR CIVIC AND GLOBAL LEADERSHIP, CITY 
        COLLEGE OF NEW YORK, CITY UNIVERSITY OF NEW YORK

    Ms. Gowrinathan. Okay. I imagine you all hear a lot of 
these panels, a lot of these conversations and I think what 
comes up over and over again is that there is this disconnect 
between researchers, between activists, between practitioner 
and policy makers, and I think one of the biggest disconnects 
is that policy makers don't understand the ground realities, 
right.
    Obviously, it is difficult for policy makers to do. I 
think, you know, what a lot of my work--what I would like to 
testify to is how the policies that are made over here affect 
the people over there--how the people over there experience 
these policies.
    If you pass materiel support for terrorism law in the 
United States it affects the resources available to a young 
girl in the northeast in Sri Lanka.
    I think the U.S. policies abroad and particularly, you 
know, we are seeing this with Sri Lanka, are too often 
committed to an ideal and this feels sort of intentional to me, 
being committed to an ideal.
    That ideal is usually democracy, which is an important 
ideal to uphold. But this commitment need not challenge 
political agendas. If you uphold only the ideal then you don't 
have to shift political agendas and it is these political 
agendas by the Sri Lankan Government, by the international 
community and by the United States that can sometimes sustain 
and create more conflict.
    So in Sri Lanka as elsewhere solutions that are based on 
ideals are not going to be effective--have not been effective. 
This is particularly concerning right now because where a 
solution fails, violence returns, and that is what I think all 
of us don't want to see happen in Sri Lanka.
    So as we consider the progress in Sri Lanka, how do we 
gauge it? Do we gauge it on policies that reflect an ideal to 
promote peace or do we gauge it on solutions that create 
structural change that is required to end violence.
    Which way are we measuring these policies in Sri Lanka? And 
this is a really central question because the people these 
policies affect can feel the difference between the two.
    And so there's four areas that I want to look at here to 
examine the gap between the people's experiences and the 
policies that we are examining. And the first is transitional 
justice.
    People have been talking a lot about transitional justice 
in Sri Lanka. There was a new report out from a group of local 
scholars in Sri Lanka--legal scholars--and one of the first 
requirements for transitional justice is that you address both 
truth and justice. The two have to be done together.
    And while the question for Sri Lanka is will the Government 
of Sri Lanka be willing to dig up mass graves, to find the 
missing husband of a widow, if that same body becomes evidence 
for war crimes.
    Will there be truth and justice? The ground reports reveal 
that already the initiatives that have started the Office of 
Missing Persons are asking victims to choose between the two. 
Do they want truth or do they want justice?
    Another thing that you have to have for transitional 
justice is confidence-building measures. You have to have the 
confidence of the people. They have to have faith in state 
institutions.
    The Tamils and other groups are still feeling very 
intensely the reverberations of past accountability efforts. 
The women I met in the refugee camps at the end of the war they 
were well aware that there was a United Nations desk to report 
sexual violence crimes. Nobody went anywhere near that desk for 
fear of retribution. The people who testified on lessons 
learned and reconciliation committee immediately faced 
harassment by security forces. The Office of Missing Persons 
has already been found to not consult the victims in any sort 
of genuine process.
    In a recent survey in the northeast found that there is a 
deep disillusionment and mistrust, and this is important not 
just as a Sri Lankan state but of the international community. 
The Tamil population feels that the international community, 
along with the Sri Lankan Government, abandoned them in 2009. 
So it is important to recognize that there is a deep mistrust 
and disillusionment in these areas.
    Another need for transitional justice is a memorialization 
of the dead. Memorializing their dead in the northeast has been 
criminalized. Not just that, they have removed the spaces of 
worship.
    Slowly you are seeing the destruction of temples and the 
erection of Buddhist statues where people might memorialize 
their dead.
    For many Tamils I've met recently, memory has no value. The 
way that they survive is by forgetting. They don't want to 
answer any more questions because they fear that memory will 
put their lives at risk.
    This is a key problem you're going to face and you have 
this sort of moment where you have development and 
accountability processes merging together and what you create 
is this entrenched victimization where a person exists only by 
the worst experience that happened to them, where they have 
access to resources only by articulating the worst thing that's 
happened to them.
    And then militarization--obviously, this demilitarization 
is one of the biggest issues for all communities in the north 
and east. To show demilitarization, yes, the government has 
made the governor of the northeast a civilian and not a 
military commander. So this is--you know, it is showing 
something.
    But if you talk to the civilians there, there was a 
civilian I spoke to recently who said you don't need 
checkpoints anymore--you don't need soldiers.
    When you have a context where preschool teachers are 
recruited into the civilian defense force where the only jobs 
are military-run hotels and hospitals and vegetable shops and 
on agricultural farms run by the military, then militarization 
is complete. Everybody is an informant.
    For those who have returned home to some of the land that 
the government has returned, most of them are living in the 
shadow of military camps.
    They are still immediately adjacent to the very forces that 
were a part of the atrocities committed in 2009. The military 
mediates every aspect of civic life in the north and east.
    Everything from communal functions to private 
entrepreneurship. They have even left their mark on the school 
uniforms of Tamil children.
    So this type of deep militarization, I think I would 
caution here has been used as a model for counter terrorism has 
been held up as something we should, you know, try to replicate 
and I think here it is important to note the defeat of the LTTE 
militarily requires a violation of all established human rights 
and humanitarian norms.
    I don't think this is something we want to replicate. And 
women, peace and security, which is a critical issue now with 
the U.N. and here at the U.S. that we put a lot of effort into, 
a recent survey that I did found that while there has not been 
as many crimes--the magnitude of crimes against women by the 
state has decreased--the mode of operating remains the same.
    So Tamil women still feel that if there is an act of sexual 
violence there will be no prosecution for that act. And so I 
think that what we are looking at--what we have to look at is 
what is the potential for the resurgence of violence.
    We use these words like inequality and alienation and these 
are things that cause violence. But we always use them in a 
passive way. They are actually active things that are 
happening. They are political acts.
    There is repressive policies that create inequality. There 
is populations that are alienated. It is done through political 
acts and these have a political impact.
    So when we look at Sri Lanka and we look at political 
reform right now, what is the genuine political space available 
for Tamils? If you're going to gauge democratic transition 
simply by a regime change that shouldn't be how we're gauging 
it because you still see the arrest of protest organizers. You 
still have the Prevention of Terrorism Act in place.
    A recent report reveals there are still white van 
abductions. There are still--the use of torture was noted by 
U.N. rapporteurs.
    So as you've seen in other countries like in Myanmar and 
other countries in democratic transition, the commitment at a 
national level to a shift in politics, in political dynamics, 
does not mean there is a structural shift to include the 
perspectives of marginalized populations and there has not been 
a shift in that way.
    So I would end by saying that the U.S. should have a 
cautious approach and the statements and policies should be 
calibrated by the ground realities.
    Things like human rights violations, the loss of faith in 
state institutions, military occupation, a culture of 
impunity--these are the drivers of violence.
    You cannot have a sustainable peace without addressing 
these things. So rather than measuring progress against the 
ideal of democracy in Sri Lanka, are we willing to push for the 
dismantling of political structures that hold inequality in 
place?
    Thank you.
    [The prepared statement of Ms. Gowrinathan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    With our truncated time for questions and the fact that we 
are going to be called for votes very soon, if members could 
maybe hold their questions to 2 minutes.
    So anybody that wants to try to get a question in before we 
leave I am going to adjourn when the votes are called. And I am 
going to allocate my time to our guest member, Mr. Donovan. So 
you go ahead and start the questioning and then I will go to 
the ranking member.
    Mr. Donovan. I appreciate it, Mr. Chairman. Thank you very 
much.
    I am curious--why do you think the judicial process is so 
slow? Over 200 Tamils held under these same laws at this moment 
7 years after the war has ended. Like, why do you believe that 
this process is so slow for these individuals?
    Anyone, yeah.
    Ms. Bue. Well, I can't say for sure exactly why it is so 
slow. But my understanding is that this is a legacy issue from 
the Rajapaksa era. There are elements within the government 
that have been resistant to moving faster on the release of 
political prisoners.
    In speaking with the current government, there are efforts 
to move past that. I know that they have released some 
prisoners as of last year and they are looking to release more.
    Mr. Donovan. Is it true that some of the names aren't even 
released yet?
    Ms. Bue. Yes.
    Mr. Donovan. I am sorry. I didn't want to cut you off.
    Ms. Bue. Oh, no. But yes.
    Mr. Donovan. Can the United States do anything about this? 
What is the United States' role here as people back home see?
    Ms. Gowrinathan. I would say that one of the key things to 
look at is the role of, again, the military. A number of the 
cases--when you have the entrenched military in a number of 
these areas the military is mediating everything.
    So what if someone reports a case? What language it's 
reported in, who they see going into a courtroom? You know, 
there is--there is sort of an impact on anybody who tries to 
engage in the judicial process.
    I have met--a former ex-combatant I met last year who said 
that she has five or six pending cases against her by the 
military for things like throwing away her cell phone because 
she didn't want to be tracked.
    So when the courts are filling up with these types of 
surveillance cases against all of the Tamils who they suspect 
to be linked in some way to the Tigers, when women can't walk 
outside because they have five different cases pending against 
them by the military, there is not going to be room for the 
Tamil population to address their grievances within the same 
court system that came from within a state that controlled the 
entire judicial mechanisms that appointed all of the Supreme 
Court judges.
    So that, I think, where those two sort of come up against 
each other you see this constant sort of slowness of the 
process.
    Mr. Donovan. Right. And so--and this will be my last 
question because I want the other members speak because the 
chairman said we have to run and vote momentarily--the United 
States' role here--besides suggesting, trying to influence, 
trying to persuade corrections in this system that you just 
described as so wrong, is there a role here for the United 
States besides just as an advisor of telling people this--what 
you are doing here is wrong and that the effects on women, as 
you just spoke about, are something that the United States 
disapproves of.
    Just disapproving it is not going to get this to move any 
further along in the process. What is our role here?
    Ms. Curtis. Well, I think the U.S. has a role in both the 
private statements it makes to the government but also public 
statements, to put a little public pressure.
    You know, these things are very difficult. You may have 
parts of the government that want to move forward quickly. But 
there are political considerations that they have.
    So I think they do need our nudging. As I spelled out in my 
testimony, there have been many positive steps by this 
government.
    But the only way the process will continue to move forward 
is probably through U.S. and other pressure. So I think it is 
important for us to make public statements also through the 
U.N.
    The U.N. is meeting today on these issues. So I think 
working through the U.N. process and continuing to press for 
concrete and substantive movement, such as releasing political 
prisoners, it's absolutely necessary for the U.S. to push.
    Otherwise, the default will be to move slowly and not take 
those very difficult steps.
    Mr. Donovan. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Salmon. Thank you. Mr. Sherman.
    Mr. Sherman. Thank you.
    Doctor, the government has sped up a special assembly 
effort to draft a new constitution. It's expected to grant 
Tamils regional political power.
    Where do things stand now on drafting these constitutional 
provisions and what is the likelihood that Tamils in the north 
and east will have some degree of regional authority?
    Ms. Gowrinathan. The likelihood, I would say, of the 
devolution of power has always been something that seems very 
optimistic for the north and east.
    You know, the concern, I think, becomes who is mediating 
that political conversation. So when you have a context where 
there was a political movement that was articulating the 
political demands of the people and that shifts to a political 
party, that may not be as sort of entrenched in the ground 
realities as you would want.
    For me, the concern becomes how do you get the everyday 
sort of citizen to engage in politics in a way that their 
opinions come across without being mediated.
    And so when you see things like mass protests that is 
encouraging. Mass protests about the disappeared--mass protests 
about the missing persons--those are encouraging. But when you 
see the protestors arrested and harassed right afterwards then 
again you feel that that space is not a genuine space offered.
    It is sort of the streets have opened up and there's less 
checkpoints but the people are still harassed.
    Mr. Sherman. Let me try to squeeze in one more question. 
What is--how is--what signs are there that the government is 
really going to transfer land from the military back to the 
people and how much land does the military control in the north 
and east?
    Ms. Bue and then----
    Ms. Bue. My understanding is that as for the north there 
are over 12,000 acres that the military still maintains.
    Now, I should have prefaced that by the fact that there are 
a lot of different numbers floating around. That's just the one 
that I use.
    Mr. Sherman. Let me--let me ask the--is--because I have 
heard a lot about the military-held land. Are we talking here 
about 12,000 rural acres? Or are we talking about more land 
than that?
    Ms. Gowrinathan. They hold a lot more than that and I think 
there is private and public land that is being held, and I was 
there last year for this very sort of fancy military ceremony 
of releasing tiny plots of land to people.
    The military still controls a large amount of land in the 
north and east that should be for--I mean, you still have tens 
of thousands of internally-displaced people because their homes 
are in high security zones.
    So the lands are still being held by the military and let's 
say that even where they say formally this is public land but 
we are going to use it for a base, we are going to use it for a 
military hospital, we are going to use it for a military-run 
hotel, that is still occupation of private lands that belong to 
Tamils.
    Mr. Salmon. I thank the panel members for coming today. We 
appreciate your commitment to improving the lives of people in 
the region and I think we've had a great discussion. I think it 
is clear that the U.S. Congress is very interested in moving 
forward and not just on paper but in reality.
    I really appreciate all the comments, and, without 
objection, the hearing will be adjourned.
    [Whereupon, at 2:47 p.m., the Subcommittee was adjourned.]

                                  
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
